                                           NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS

                                     CLOSEOUT MEMORANDUM

 Case Number: A12090066                                                          Page 1 ofl


         A complainant1 raised several concerns, which included programmatic concerns and
         an apparent allegation of intellectual theft (plagiarism). We contacted the
         complainant for clarification of his allegation, and he told us he was reluctant to
         classify his concern as an allegation. He had found an error in a proof published2 by
         a NSF-supported researcher (the subject 3 ) and had attempted to discuss the error
         with the subject, but the subject dismissed his efforts to discuss the matter, telling
         the complainant that he would only communicate with him through published
         papers. The complainant subsequently submitted a Comment on the subject's
         paper that was provided to the subject for a response, but the journal decided not to
         publish the complainant's Comment or the subject's response to it. Subsequent to
         the Comment, a paper4 containing a corrected version of the subject's proof was
         published that did not acknowledge the complainant.
         The complainant alleged the subject used information presented in his Comment to
         publish a corrected version of his results without giving appropriate credit to the
         complainant for finding the error. The complainant acknowledged the subject's
         proofwas his own, but said the subject's failure to acknowledge him deprived him of
         credit for the intellectual work required to locate the error in the proof. The
         complainant also alleged the subject's failure to acknowledge his intellectual effort
         was a violation of the ethical standards of the professional society that published
         the paper.
         We consulted with experts to determine the community standard regarding general
         acknowledgment of pointing out errors in proofs. Based on their responses, we
         concluded, in general, the lack of acknowledgment was a departure from community
         standards, but would be better addressed by the journal editor. Since the
         complainant alleged the subject allegedly violated the journal's ethical standards,
         and the complainant had not discussed the subject's action with the journal, we
         recommended to the complainant that the professional society and journal editor
         would more likely provide a more suitable resolution of this matter. Accordingly,
         this case is closed with no further action taken.




NSF OIG Form 2 (11102)
